No. ______
IN THE

Supreme Court of the United States
JAMES CALVERT,
Petitioner,
v.
TEXAS,
Respondent.
CERTIFICATE OF SERVICE
I, David W. DeBruin, hereby certify that I am a member of the Bar of this Court,
and that I have this 16th day of November 2020, caused a paper copy of the Petition for a
Writ of Certiorari to be delivered to the Court and an electronic version of the document
to be delivered to:
Mike West
Assistant District Attorney
Smith County Criminal District Attorney
100 N Broadway Ave
Ste 400
Tyler, TX 75702
(903) 590-1720
mwest@smith-county.com

/s/ David W. DeBruin
David W. DeBruin

